                                             SENSITIVE BUT UNCLASSIFIED


OFFICE OF INSPECTOR GENERAL

                                                       United States Department of State
                                                       and the Broadcasting Board of Governors
                                                       Office of Inspector General




                               OFFICE OF INSPECTIONS

                               Inspection of Embassy Dili, Timor-Leste



                               Report Number ISP-I-11-21A, March 2011
Inspector
General
Office of




                                                                      IMPORTANT NOTICE
                               This report is intended solely for the official use of the Department of State or the Broadcasting Board
                               of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                               General. No secondary distribution may be made, in whole or in part, outside the Department of State
                               or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be determined by the
                               Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                               criminal, civil, or administrative penalties.



                                             SENSITIVE BUT UNCLASSIFIED

  SENSITIVE BUT UNCLASSIFIED





   PURPOSE, SCOPE AND METHODOLOGY 

          OF THE INSPECTION


This inspection was conducted in accordance with the Quality Standards
for Inspections, as issued by the President’s Council on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of
Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

Purpose
The Office of Inspections provides the Secretary of State, the Chairman of
the BBG, and Congress with systematic and independent evaluations of the
operations of the Department and the BBG. Inspections cover three broad
areas, consistent with Section 209 of the Foreign Service Act of 1980:
 • 	 Policy Implementation: whether policy goals and objectives are being
     effectively achieved; whether U.S. interests are being accurately
     and effectively represented; and whether all elements of an office or
     mission are being adequately coordinated.
 • 	 Resource Management: whether resources are being used and 

     managed with maximum efficiency, effectiveness, and economy and 

     whether financial transactions and accounts are properly conducted,

     maintained, and reported.

 • 	 Management Controls: whether the administration of activities and
     operations meets the requirements of applicable laws and regulations;
     whether internal management controls have been instituted to ensure
     quality of performance and reduce the likelihood of mismanagement;
     whether instance of fraud, waste, or abuse exist; and whether adequate
     steps for detection, correction, and prevention have been taken.

Methodology
In conducting this inspection, the inspectors: reviewed pertinent
records; as appropriate, circulated, reviewed, and compiled the results
of survey instruments; conducted on-site interviews; and reviewed the
substance of the report and its findings and recommendations with
offices, individuals, and organizations by this review.




  SENSITIVE BUT UNCLASSIFIED

               SENSITIVE BUT UNCLASSIFIED





                                           United States Department of State
                                           and the Broadcasting Board of Governors
                                           Office of Inspector General




                                     PREFACE


This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service
Act of 1980, as amended. It is one of a series of audit, inspection, investigative, and
special reports prepared by OIG periodically as part of its responsibility to promote
effective management, accountability and positive change in the Department of State
and the Broadcasting Board of Governors.

This report is the result of an assessment of the strengths and weaknesses of the
office, post, or function under review. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of
applicable documents.

The recommendations therein have been developed on the basis of the best knowl­
edge available to OIG and, as appropriate, have been discussed in draft with those
responsible for implementation. It is my hope that these recommendations will result
in more effective, efficient and/or economical operations.

I express my appreciation to all of those who contributed to the preparation of this
report.




                                       Harold W. Geisel
                                       Deputy Inspector General




               SENSITIVE BUT UNCLASSIFIED

                       SENSITIVE BUT UNCLASSIFIED



                                   TABLE OF CONTENTS


KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   5

  Moving from Expeditionary Mode to Normal Operations . . . . . . . . . . . . . . . . . . . . . . . .                                 5

  Mission Strategic and Resource Plan Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   6

  Country Team and Interagency Relations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    7

  Embassy Facilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    8

  Attention to Security and Emergency Preparedness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        9

  Attention to Public Diplomacy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             9

POLICY AND PROGRAM IMPLEMENTATION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11

  Political and Economic Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11

  Public Diplomacy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

  Consular Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

  Visa Referrals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

  Visas Viper . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

RESOURCE MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19

  Management Operations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19

  Rightsizing and Consolidation of Management Services . . . . . . . . . . . . . . . . . . . . . . . . . 21

  Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

  Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

  International Cooperative Administrative Support Services . . . . . . . . . . . . . . . . . . . . . . 22

  Facilities Management. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

  General Services Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

  Information Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

QUALITY OF LIFE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          33

  Community Liaison Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               33

  Health Unit. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   34

  Equal Employment Opportunity Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         34

  Employee Association . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         35

MANAGEMENT CONTROLS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         37

 Management Section . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          37

 Consular Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  38

 Grants Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           38

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47



                          OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011                               iv


                       SENSITIVE BUT UNCLASSIFIED
    SENSITIVE BUT UNCLASSIFIED





v   OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




KEY JUDGMENTS


• 	 Embassy Dili has been in an expeditionary mode since the first ambassador
    arrived in 2003. The time has come to institutionalize the policies and proce­
    dures that mark a normal embassy.
• 	 The Department opened an interim office building in 2005 on the chief of
    mission compound in anticipation that a new chancery would be built starting in
    2012. That date has been moved to 2023. The term “interim” no longer applies.
    The Department and Embassy Dili must make office facilities usable for at least
    another decade.
• 	 Embassy Dili wants to begin issuing nonimmigrant visas. It has a good case to
    make for doing so, but it needs to make that case to the Department.
•   Management support services at Embassy Dili have been adequate for the limited
    staff and scope of activities of a fledgling embassy, but embassy managers need to
    pay greater attention to management controls.
• 	 Attracting, hiring, and keeping qualified locally employed staff is one of the
    embassy’s greatest challenges. The end of the UN stabilization mandate in
    2012 should bring many qualified Timorese into the job market. Meanwhile,
    American officers are dedicating more time and attention to staff development
    than is usual in more established embassy.

All findings and recommendations in this report are based on conditions observed
during the on-site review and the standards and policies then in effect. The report
does not comment at length on areas where the OIG team did not identify problems
that need to be corrected.

The inspection took place in Washington, DC, between September 13 and 24, 2010;
and in Dili, Timor-Leste, between November 2 and 10, 2010. (b) (6)




                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   1


               SENSITIVE BUT UNCLASSIFIED
    SENSITIVE BUT UNCLASSIFIED





2   OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




CONTEXT


Timor-Leste is one of the world’s newest nations, conceived in the abrupt Portuguese
decolonization of 1974. Indonesia stepped into the chaos that the Portuguese vacuum
created and violently subdued the territory.
After 25 years, Indonesia’s grip loosened,
as President Suharto’s power waned. In a
referendum offered by Suharto’s successor,
President B.J. Habibie, the people of Timor-
Leste voted overwhelmingly for indepen­
dence in August 1999. This act fueled
a vengeful response by the Indonesian
military and local militia allies, until an
Australian-led UN military force inter­
vened. In addition to the 1,400 Timorese
who died in the violence, about 70 percent
of Timor-Leste’s economic infrastructure
was laid waste. Much of the capital city of
Dili and other towns lay in ruins.

International outrage at the violence led     Map of Dili, Timor-Leste and its surrounding
to a UN Transitional Administration that      region.
prepared the country for full statehood.      Source: U.S. Government
Under UN auspices, free elections took
place in August 2001, and independence
of Timor-Leste finally took place on May 20, 2002. The United States established an
embassy in Dili the same year.

Timor-Leste’s future is buoyed by significant revenues from development of oil
fields in the Timor Sea, but it is handicapped by one of the highest birth rates in the
world, underdeveloped human capital, and insufficient infrastructure. In April 2006,
the prime minister at the time pronounced that, “now we have a state;” however, 6
years of recovery had yielded little improvement in the lives of ordinary Timorese.
Non-petroleum gross domestic product recovered modestly in 2005; however, earlier
negative growth, coupled with the high birth rate, meant that gross domestic product
per capita actually fell from $450 in 2001 to an estimated $364 in 2005. The dete­
rioration during the first years of independence contributed to an outbreak of severe
violence in 2006 that led to the establishment of the UN Integrated Mission in East
Timor.




                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   3


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    Even factoring in oil revenues, Timor-Leste’s gross domestic product was ranked
    134th out of 181 nations by the International Monetary Fund in 2009. According to
    the United Nations, however, Timor-Leste’s economy is now at a turning point, as
    oil revenues could triple gross domestic product, bringing Timor-Leste to the level of
    El Salvador or Belize in terms of gross domestic product per capita. As of June 2009,
    Timor-Leste’s petroleum fund contained $5 billion and was growing.

    The small U.S. embassy in Dili operates in a difficult working environment and is
    confronted with massive developmental challenges. The key goals for this new nation
    are how to wisely use its oil fortune to create sustainable development, and how to
    set the stage politically for the departure (beginning in 2012) of the UN Integrated
    Mission.




4                    OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




EXECUTIVE DIRECTION



MOVING FROM EXPEDITIONARY MODE TO NORMAL
OPERATIONS
The first U.S. ambassador to Timor-Leste arrived in Dili in 2003. The third and
current Ambassador came in September 2010. When the first ambassador arrived,
the embassy operated out of a modest, leased bungalow that now serves as the U.S.
Agency for International Development (USAID) offices. Several years passed before
that ambassador could occupy the current residence and embassy staff could move
into an adjacent interim office building.

For the first two ambassadors and their U.S. direct-hire and LE staff, representing
the United States was truly expeditionary. Nothing could be done easily. Acquiring
even the most elementary piece of equipment or service took time, and often required
looking outside Timor-Leste. Communications were difficult, even when the services
were available. Instability and the threat of political violence were ever-present
impediments to embassy operations. Implementing every Department requirement to
the letter was simply impractical.

Timor-Leste continues to be a challenging environment to pursue U.S. national
interests, but the arrival of the Ambassador provides an opportunity to move this
embassy from an expeditionary mode to more normal embassy operations. As noted
in several sections of this report, the time has come for more discipline and rigor in
embassy operations, whether it be in formulating requests for additional resources
or programs; providing equal employment opportunity (EEO) services; promoting
professional development for entry-level officers (ELO); addressing occupational
safety and health; establishing files; or maintaining basic management controls, such
as vehicle logs.

The Ambassador has the advantage of having a strong, productive, and motivated
team of Department and other agency employees whose morale is high. Despite
hardships, which are recognized with a 35 percent pay allowance, American staff
members enjoy their work, feel proud of what they are doing, and have a good family
life environment. Several Department staff members have extended for a third year
of service in Dili, and the embassy generally has been able to attract qualified U.S.
direct-hire replacements for current staff.



                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   5


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    Part of the transition from expeditionary mode to normal operations is finding the
    right level of U.S. direct-hire and LE staffing. The LE staff includes some expe­
    rienced and capable employees across sections and in key management subunits.
    However, some of the subordinate staff are inexperienced, untrained, or lack requisite
    job skills, and their performance does not always meet the expectations of their
    supervisors or customers. As a result, American supervisors must provide more over­
    sight and guidance to their LE staff than is required in more well established embas­
    sies. This reality has led Embassy Dili to request an expanding number of American
    employees. Several sections of this report address staffing requests.




    MISSION STRATEGIC AND RESOURCE PLAN PROCESS
    The embassy coordinated well its FY 2012 Mission Strategic and Resource Plan
    (MSRP), and the plan provides a good overview of priorities and resource needs. The
    principal role of the embassy, as stated in the chief of mission statement, is to help
    the Government of Timor-Leste maintain stability and promote economic and social
    development. The primary mission goals focus on strengthening rule of law, profes­
    sionalizing security forces, bolstering institutions of democratic governance, and
    promoting private sector economic development.

    Department officials noted that the MSRP’s performance measures were generally
    specific and therefore good. They added, however, that the plan was not as forward-
    looking as it might have been, especially with respect to the scheduled 2012 elections.
    Moreover, while the MSRP made frequent references to the impact of a possible
    reduction in the generous assistance levels Congress has designated for Timor-
    Leste, the plan did not address or establish priorities should assistance levels drop
    significantly.

    The MSRP also included the need to increase American staffing to support antici­
    pated growth in programs, as well as the anticipated return of the Peace Corps as
    early as 2011. The plan had only a cursory discussion of the need for a new embassy
    compound to absorb such growth, as well as to allow for the colocation of all U.S.
    agencies, including USAID. In fact, the Bureau of Overseas Buildings Operations
    (OBO) has pushed the start date for a projected new embassy to FY 2023, even
    though the existing interim office building plus ancillary buildings are approaching
    the bursting point. Both the embassy and Washington need to recognize that exist­
    ing office arrangements can no longer be characterized as “interim.” For the embassy,
    this will require making sure that the MSRP addresses resource requirements to
    make these facilities usable for another decade or more; it also will mean balancing
    requests for staffing increases against the limitations of those facilities.




6                    OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



The embassy soon will begin to develop its FY 2013 MSRP, which will be the first
MSRP exercise for the Ambassador. As part of the strategic review process that will
lead up to the FY 2013 MSRP (discussed further below), the embassy will need to
consider organizing the existing chancery for maximum productivity; installing
security upgrades on work spaces behind the chief of mission residence (explained
in the classified annex to this report); and instituting replacement and maintenance
programs for the gates, doors, and facilities to address deterioration caused by the
chancery’s seaside location. Such actions are part of the transition from expeditionary
to normal status. Recommendations in the management section and classified annex
address some of these issues.




COUNTRY TEAM AND INTERAGENCY RELATIONS
In addition to the Department of State (Department) and USAID, the Departments
of Defense and Justice have representatives on the country team. A Millennium
Challenge Corporation representative is expected to join the team in 2011. Since
2009, a 25-member team of the U.S. Navy Construction Battalion (Seabees), repre­
senting U.S. Pacific Fleet command, have been engaged in civic action projects.

Communication and collaboration across the mission are well established and
productive. As military-to-military and rule-of-law programs have added complexity
to the array of assistance programs the United States implements in Timor-Leste,
the embassy has come to realize the need for a better coordination mechanism. The
policy and program section of this report recommends establishing a regular assis­
tance working group for this purpose.

In interviews with OIG team members, embassy staff frequently characterized the
embassy’s small size as its greatest strength, as well as its greatest weakness. The close
working conditions and small size of the staff mean that face-to-face communication
takes place all the time; it is unavoidable. At the same time, as one staff member put
it: “everyone knows what everyone else is doing. There are no secrets here.” In addi­
tion, the limited number of employees and relative newness of some to the Foreign
Service or to their current jobs mean there is limited staff depth. One large congres­
sional delegation or military exercise can overwhelm human resources, as well as
physical ones.

The Ambassador arrived in 2010 with high energy and expectations. Shortly after,
she traveled to the United States for a Bureau of East Asian and Pacific Affairs Chiefs
of Mission conference and consultations at U.S. Pacific Command. At the outset
of the inspection, she had been present in Dili for about 4 weeks. Staff described
initial impressions of her style as being more directive than that of her predecessor.


                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   7


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    The transition of leadership has been bumpy for some embassy staff who were
    still making adjustments at the time of the inspection. The OIG team urged the
    Ambassador to establish her expectations and objectives as soon as possible.

    During the inspection, the Ambassador and deputy chief of mission (DCM) selected
    December 1, 2010, for a “thinking strategically” session with all U.S. direct-hire staff.
    The announcement of the session said it would be an opportunity to discuss “key
    questions that will help steady our agenda for the coming months.” It specifically
    noted that the session would serve as a mid-term review of the MSRP and would
    focus on the “broad sweep of mission operations, including diplomatic, assistance,
    managerial, morale, etc.” The announcement also indicated that this was the first of
    a series of sessions, and it urged American personnel to engage their LE staff for ideas
    and suggestions. This is the kind of process that not only builds cohesion but also is a
    hallmark of a normal embassy.




    EMBASSY FACILITIES
    The embassy is located on the site of the former Indonesian governor’s mansion,
    an oceanfront property in Dili. The U.S. Government holds a long-term lease on
    the property that extends to 2032. The mansion itself serves as the chief of mission
    residence. The site also includes a one-story, unclassified office building with 4,750
    square feet of usable space and a classified annex containing another 1,350 square
    feet. A small warehouse and several other permanent and prefabricated buildings are
    located at the back of the compound, where a medical unit, mail room, recreation
    center, workshops, and garage space also are situated.

    The chancery interior is cramped and barely adequate for current staffing. A space
    planning specialist from OBO visited Dili in 2010 and proposed expanding the
    use of modular furniture to accommodate more staff within the existing build­
    ing. Embassy Dili also had proposed converting an existing compound building
    to provide more office space; however, a team of OBO and Bureau of Diplomatic
    Security specialists visited Dili and determined that the upgrade was not feasible.
    Alternative solutions are being explored, but there is no definitive plan at this time.

    In 2004-2005, OBO constructed the chancery. Since then, OBO and the Bureau
    of Diplomatic Security have called the structure an “interim office building.” The
    Department expected this facility would be adequate until construction of a new
    chancery started in 2012, eliminating the need for any interim enhancements.
    However, the Department has reprioritized construction projects worldwide to more
    closely align priorities with vulnerability assessments. As a result, OBO now plans
    to construct a new chancery in Dili in 2023. The current chancery can no longer be


8                    OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                   SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED


considered an interim facility, and the Department can no longer defer security and
functionality upgrades, on the grounds that the current facilities are temporary.


   RECOMMENDATION 1: The Bureau of Overseas Buildings Operations, in
   coordination with Embassy Dili, the Bureau of Diplomatic Security, and the
   Bureau of East Asian and Pacific Affairs, should stop considering the embassy
   chancery as an “interim office building,” and should develop a master facilities
   plan for renovations and expansions to ensure the security and functionality of
   the current chancery, until a new chancery is constructed. (Action: OBO, in
   coordination with Embassy Dili, DS, and EAP)




ATTENTION TO SECURITY AND EMERGENCY
PREPAREDNESS
The regional security officer has a robust program to address concerns about
crime and political violence. He receives strong support from the Ambassador and
DCM. The embassy has evaluated threats of natural disaster and sited an alternate
command center at a residence that is 30 feet above sea level, which puts it well
above the inundation level of a tsunami. During a U.S. military exercise in 2009,
the embassy tested elements of its emergency action plan. These steps are indicative
of the close and appropriate attention that embassy leadership gives to security and
emergency preparedness.




ATTENTION TO PUBLIC DIPLOMACY
The people of Timor-Leste have a positive image of the United States. The embassy’s
FY 2012 MSRP includes a separate goal paper on public diplomacy. The embassy
has a modest but ambitious program of public diplomacy activities that include
exchanges, outreach, and media engagement. USAID underwrites administrative
overhead and program costs of an Ambassador’s Self-Help Program, which began in
FY 2010. Under guidance of the DCM, a public diplomacy-coned Foreign Service
officer, the embassy, and USAID also cooperated to establish an Ambassador’s Self-
Help Fund.




                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   9


              SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED


     The Ambassador arrived in Dili after serving as DCM in Singapore and consul
     general in Sydney, Australia. Both of these positions provided her extensive experi­
     ence in public affairs, and she is anxious to use that experience to advance the
     embassy’s public diplomacy agenda.




10                    OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



POLICY AND PROGRAM
IMPLEMENTATION


POLITICAL AND ECONOMIC AFFAIRS
The embassy robustly promotes democratic values and good governance with the
Government of Timor-Leste. It effectively encourages support for U.S. positions in
multilateral organizations.

The embassy provides timely, essential information to the Department and other
consumers in appropriate volume. The DCM and a first-tour ELO carry out politi­
cal and economic reporting. When the first public affairs officer curtailed, the ELO
assumed responsibility for public diplomacy, in addition to having consular, political,
and economic duties. The ELO must invest considerable time to obtain information
from Timorese institutions. As OIG teams have found elsewhere, required annual
reporting can be quite burdensome in small posts. The ELO spends virtually all of
the time for political and economic work on writing required annual reports, leaving
most analytic reporting to the DCM. The OIG team advised the staff on how best to
organize preparation of these required reports.

In the summer of 2011, a mid-level political/economic officer and a mid-level public
diplomacy officer will arrive in Dili. Their arrival will help the embassy to expand
outreach and bolster reporting on internal politics in advance of national and parlia­
mentary elections planned for 2012. The embassy also could benefit from conducting
an opinion survey of the domestic political scene, to help it plan coverage and report­
ing of the elections. For instance, such a survey could address how people view the
performance of young government institutions; whether they believe elections will
be free and fair; and how confident they are about Timor-Leste’s stability after the
UN Integrated Mission departs. The OIG team informally recommended that the
embassy request Department support for such a survey.


   RECOMMENDATION 2: Embassy Dili, in coordination with the Bureau
   of East Asian and Pacific Affairs and the Bureau of Intelligence and Research,
   should conduct a survey of political opinion in advance of the 2012 national
   elections. (Action: Embassy Dili, in coordination with EAP and INR)



                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   11


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Law Enforcement and Governance

     A security, law enforcement, and justice working group meets regularly and uses a
     prepared agenda to exchange views and establish synergies among U.S. entities and
     with foreign donors. Leahy vetting procedures are applied thoroughly.


     Biographic Reporting
     The embassy conducts biographic reporting infrequently. Despite having an excel­
     lent network of contacts throughout Timor-Leste, it provided only a few insightful
     biographic reporting products early in 2010. The embassy will be challenged by the
     2012 elections, as a new generation of leaders unknown outside Timor-Leste will
     likely emerge. The OIG team made an informal recommendation that biographic
     comments about influential Timorese become a regular element in cable reporting.


     Records and Data Management
     Records and data management is an area where embassy operations can move quickly
     to a more normal status. Employees have not implemented Department procedures
     on information sharing and document management, as required by 5 FAM 400 and
     5 FAH-1 H-300. They are not using the Department’s system for traffic analysis by
     geography and subject labeling. Officers retain information in personal email folders
     or electronic document folders that are not readily accessible to colleagues who may
     need to access the information when an officer is out absent or has been transferred.
     The OIG team informally recommended that the embassy establish electronic filing
     systems according to the traffic analysis by geography and subject system.

     Staff has not retired files to Department archives. Failure to maintain files causes
     inefficiency, as staff waste time searching for information. Inexperienced officers may
     be unable to access model documents, and material that should be retrievable by the
     Department and historians could be lost. The OIG team made an informal recom­
     mendation that the embassy instruct its employees on proper records management
     and archiving responsibilities and ensure compliance with those requirements.

     Embassy Dili installed the State Messaging and Archive Retrieval Toolset (SMART)
     software system in July 2010, which features a “record email” function by which
     to archive emails. This function should be used for a significant number of emails
     relating to schedules for visitors, steps taken to implement programs, and policy-
     related exchanges with Department offices and other agencies. The OIG team made
     an informal recommendation that the embassy issue guidance on the types of email
     correspondence that should be maintained for files and archiving purposes in the
     new software system. 




12                    OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Commercial Promotion
The Ambassador is weighing whether a more robust embassy effort to promote
imports of U.S. goods and services might be productive. She told the OIG team
that, in any event, such an initiative would have to be delayed until 2011, when two
officers will arrive to handle the political/economic, consular, and public diplomacy
functions that are currently being covered by a first-tour ELO.

With the exception of a U.S. investor in offshore oil and gas development, U.S.
business interest in Timor-Leste’s underdeveloped economy is negligible. American
brands are imported via Australia and Singapore. The embassy advises U.S. firms
competing for opportunities financed by foreign donors, and is a decisive, strong
advocate for U.S. exports with senior host country officials when needed. For
instance, embassy staff enlisted Foreign Agriculture Service expertise to secure the
removal of non-tariff restrictions on U.S. poultry imports.


Assistance Coordination
The Ambassador, DCM, and USAID staff often consult over the assistance opera­
tional plan and its central role in the MSRP. The Department of Defense and the
U.S. Pacific Command conduct numerous humanitarian and civic action projects
in Timor-Leste, supplementing the large USAID program and Department-funded
activities. The embassy coordinates assistance with foreign donors and has leveraged
U.S. funds to greater benefit, by arranging joint activities with bilateral partners.

An assistance working group meets monthly or bimonthly, as the workload warrants,
to evaluate proposals and discuss ongoing projects. More thorough communication
would help preclude duplicative work and would foster the sharing of lessons learned.
The OIG team informally recommended that the assistance working group move
from informality to establishing a regular schedule with prepared agendas in order to
facilitate effective evaluation of complementary opportunities and validate good local
partners for sustainable activities.




PUBLIC DIPLOMACY
Outreach has been hampered by the 2010 curtailment of the embassy’s first public
affairs officer. The ELO, who also does political/economic and consular work, spends
40 percent of his time on public diplomacy. The embassy’s public diplomacy efforts
are further complicated by Timor-Leste’s poor transportation, telecommunications,
and institutional infrastructure. Internet connections are slow, unreliable, and costly.
The two television stations have minimal original programming. Broadcast and print


                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   13


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     journalists lack investigative skills. Moreover, staffing gaps have made it difficult for
     the embassy to exploit opportunities with local media.

     The embassy has a modest public affairs budget that is used to exploit many avenues
     to promote U.S. values and interests. It is resourceful in reaching out to counterparts
     in the region that have group international visitor programs to which a Timorese
     could be added. The embassy has supplemented its annual allotment of two Fulbright
     scholarships by successfully nominating candidates for exchange programs such
     as the globally competitive Edward R. Murrow program for journalists. Regional
     English language and information resources offices in Jakarta provide excellent
     support for these outreach efforts.

      Social media provides a ready channel to reach youth. The Timorese use Facebook
     more than Web sites to exchange information. The embassy maintains an active
     Facebook page, in both English and Tetum (one of Timor-Leste’s two official
     languages). The political assistant uses Facebook to track domestic political debate.
     The embassy and USAID are negotiating with the sole cell phone provider to arrange
     commercial usage of group (not just individual-to-individual) text messaging – a
     service that is not yet available in Timor-Leste. Once the cell phone provider agrees,
     the embassy is planning to use cell phones to transmit Voice of America headline
     news in Portuguese, the country’s second official language. At the time of the OIG
     inspection, the embassy was replacing its contracted Web master in the United States
     with a local staff member, who will expand the use of Tetum on the embassy’s Web
     site.

     Education is an important component of the public affairs budget. The embassy is
     supporting a grant to an English language teaching fellow, assisting with English
     testing services, and providing English instructional books. It also seeks to open an
     American Corner, once it identifies a suitable partner.




     CONSULAR AFFAIRS
     Embassy Dili has a small consular operation, but it would like to expand the opera­
     tion into a more normal consular section; the OIG team supports this initiative.
     Currently, one part-time ELO (who also does political/economic and public diplo­
     macy work) and one part-time LE staff member (who is also the senior political/
     economic LE staff member) handle all consular work. They also provide emergency
     services to American citizens, but that workload is quite small. The embassy has
     not handled any deaths, arrests, repatriations, or medical evacuations of American
     citizens in recent memory.




14                    OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



The embassy performs notarial services and helps American citizens register. It also
accepts petitions for immigrant visas and applications for U.S. passports and consular
reports of birth abroad, which it forwards to Embassy Jakarta for further processing.
The staff provides considerable assistance to nonimmigrant visa (NIV) applicants,
while advising them that they must apply for visas at Embassy Jakarta or another
post.

The biggest consular issue for Embassy Dili is its desire to be authorized by the
Department to provide U.S. passport/citizenship services and NIV services.


Passport/Citizenship Services
 Most passport/citizenship services in Timor-Leste involve routine applications to
renew U.S. passports or requests for extra visa pages in a U.S. passport. Embassy Dili
collects the applicable fees and sends the documents to Embassy Jakarta in a pouch
twice a week. In 2009, Embassy Dili forwarded 60 U.S. passport applications and
two consular reports of birth abroad applications to Embassy Jakarta.

From the time of application, it takes 3 to 4 weeks to receive the requested service,
which is approximately twice the average processing time at other posts in the region.
American citizens in Timor-Leste are unhappy with this arrangement.

The regional consular officer in Bangkok is responsible for advising Embassy Dili on
its consular operations. He visits Dili twice a year. On his visit in September 2010, he
provided helpful suggestions to the embassy on alternative arrangements for process­
ing U.S. passport applications, such as sending the applications by courier to the U.S.
Passport Agency in Honolulu. Given the low volume of cases in Dili, doing so would
not have a significant impact on Honolulu’s workload. Embassy Apia in Samoa has a
similar arrangement with Honolulu.


    RECOMMENDATION 3: Embassy Dili, in coordination with the Bureau
    of Consular Affairs, should explore alternative arrangements for processing
    U.S. passport applications from Timor-Leste. The embassy should initiate this
    dialogue by sending a cable to the Department explaining the problems with
    the current arrangement. (Action: Embassy Dili, in coordination with CA)



Nonimmigrant Visa Services
As noted above, NIV applicants apply at Embassy Jakarta or another post.
Approximately 96 percent of the 150 Timorese who obtain NIVs every year are



                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   15


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Timorese Government officials or people who are being sponsored by the U.S.
     Government. The refusal rate is therefore extremely low.

     Timorese officials, including the president, have expressed frustration about the
     delays and extra expense involved in applying in Jakarta for an NIV. Since no airlines
     fly between Dili and Jakarta, travelers have to transit through Bali or Singapore and
     stay overnight in Jakarta before applying. They then have to spend another night in
     Jakarta while awaiting their visa. Thus, an application for an NIV in Jakarta involves
     paying for a minimum of two nights’ lodging, plus round-trip airfare.

      Embassy officials gave the OIG team several examples of how the bilateral rela­
     tionship has been negatively affected by this cumbersome process. On occasion,
     American and LE staff members have had to travel to Jakarta to deliver additional
     documentation requested by Embassy Jakarta to prevent the Timorese in U.S.
     Government-sponsored activities from missing deadlines for training programs or
     conferences. In other cases, applicants who were being sponsored through public
     affairs programs have lost their opportunities because of delays in visa processing.

     Embassy officials spend considerable time dealing with the fallout from such missed
     opportunities, as well as advising applicants, making arrangements for officially
     sponsored applicants, tracking cases, and resolving unforeseen problems. Their time
     could be used more productively if they did the NIV work themselves, and they
     could much more easily resolve any issues that may arise, such as the need for more
     documents.

     The OIG team reviewed the space required for a small consular section to process
     NIV and U.S. passport/citizenship applications. The embassy already has a consular
     waiting room and a service window, behind which three LE staff members currently
     work; the embassy would need to build a wall with a controlled-access door enclos­
     ing that area. The LE staff would be moved as part of the space-planning initiative
     discussed in the executive direction section of this report.

     The only additional personnel the embassy would need would be a full-time consular
     LE staff member. The ELO who is doing consular work part-time is actually in an
     FS-03 position and is being replaced in the summer of 2011 by an FS-03 officer.
     That officer would continue to be the part-time consular officer. The workload, even
     if the expansion of consular services were approved, would not justify a full-time
     consular officer. As noted above, much of the time currently spent helping NIV
     applicants to apply in Jakarta could be used to process the applications in Dili.




16                    OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                    SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED


The OIG team also reviewed the technical capabilities of the embassy infrastructure
to support NIV and U.S. passport processing. The embassy’s bandwidth has doubled
in the past year, and it would be sufficient to support these consular services.

The embassy has a good case to make to the Department for providing NIV services
in Dili. Up to the time of the inspection, the embassy had not yet submitted a formal
request. The time has come to do so.


   RECOMMENDATION 4: Embassy Dili should send a formal request to the
   Bureau of Consular Affairs, explaining why it should provide nonimmigrant
   visa services in Dili and what the resource implications would be for doing so.
   (Action: Embassy Dili)


Timor-Leste’s Internet service is slow and erratic. NIV applicants often cannot
complete the new visa application form, because they lose Internet service in the
middle of completing the form. Embassy employees have resorted to bringing the
applicants—many of whom are good contacts or are travelling on U.S. Government
programs— into the chancery to complete the forms on OpenNet. The embassy is
aware that this unorthodox procedure needs to be stopped; it is installing a stand­
alone computer in the consular public waiting room, which NIV applicants can use
to complete their online applications.




VISA REFERRALS
The OIG team reviewed the visa referrals submitted by Embassy Dili to Embassy
Jakarta. In the last 8 months, the embassy had submitted one referral. Embassy
Jakarta, as a matter of policy, provides expedited appointments for applicants from
Timor-Leste. This arrangement is the main reason Embassy Dili does so few refer­
rals, as Class B referrals are solely for requesting an expedited appointment. The
referral in question was in compliance with the worldwide visa referral policy.




VISAS VIPER
Embassy Dili officers meet once a month to review the Visas Viper policy. The
embassy has not had any submissions in the past year, but it is meeting all the
requirements under this policy.


                OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   17


              SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





18   OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


     SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




RESOURCE MANAGEMENT


                                    U.S.              U.S.
                                                                                                                Total
                                   Direct-           Local-           Foreign                    Total
          Agency                                                                                               Funding
                                    Hire              Hire          National Staff               Staff
                                                                                                               FY 2010
                                    Staff             Staff

State – D&CP                                 4                  1                        2                 6      $601,500


State - ICASS                                3                  1                      27                 31    $2,345,800

State - Public Diplomacy                     1                  0                        3                 4      $110,054
State – Diplomatic Security                  1                  0                      94                 95      $257,819
State – Office of Overseas
                                             0                  0                        0                 0      $328,347
Buildings Operations

State – Representation                       0                  0                        0                 0       $14,650

Office of Defense Cooperation                1                  0                        1                 2      $176,000
USAID – OE
OE/2010                                      4               0                         8               12       $1,687,000
DLI OE                                       2               0                         0                2         $454,318
CC OE                                        0               0                         0                0        $824,000
MCC OE                                       0       1 (vacant)                1 (vacant)       2 (vacant)        $104,960
USAID – DA / CSH/                            2                  0                       10                12    $41,147,000
ESF / MCC / CMM/
AusAid / HDAC
Dept of Justice – OPDAT                      1                  0                        1                 2
FMF                                          0                  0                        0                 0      $500,000
IMET                                         0                  0                        0                 0      $330,000
Totals                                     19                  3                     147                 168 $48,881,448




MANAGEMENT OPERATIONS
Managing a new embassy in a challenging environment with limited staffing,
embassy management has found it difficult to provide the full range of administra­
tive support for this small embassy. Nonetheless, customers are relatively satisfied.
The FY 2010 International Cooperative Administrative Support Services (ICASS)


                    OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011                        19


                  SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     customer satisfaction survey results for Embassy Dili were on par with worldwide and
     regional averages. The respondents to the workload and quality of life survey rated
     the overall quality and customer service orientation of the management section at 3.5
     on a 5.0 scale, which are respectable scores, given the constraints noted above.

     The management section is under the direction of the management officer, a third-
     tour officer serving in an FS-03 position. He reports directly to the DCM and has
     immediate responsibility for financial and human resources management, facilities
     management, the health unit, and the community liaison office. He has indirect
     responsibility for information management and general services operations. He
     supervises five LE staff members and three U.S. direct-hire employees: an FS-03
     information management officer, an ELO general services officer, and an eligible
     family member who serves as a community liaison office coordinator.

     Embassy Dili depends upon neighboring posts for advice and oversight in several
     elements of management operations. Embassy Bangkok provides support for the
     financial management and human resources operations, and employees from both
     offices in Bangkok make regularly scheduled visits to Dili.

     Despite support agreements with neighboring posts, Embassy Dili included a request
     in its FY 2012 MSRP for a financial/human resources officer position, maintaining
     that the quality of regional support services from Embassy Bangkok is not adequate
     for its expanding population. The Bureau of East Asian and Pacific Affairs does
     not currently support this request, asserting that the regional support arrangement
     meets Embassy Dili’s needs. In fact, embassy managers told the OIG team that they
     were satisfied with Embassy Bangkok’s financial management support, and the OIG
     team agrees with that assessment. Embassy managers were less satisfied with the
     human resources support, but the OIG team advised the embassy to document
     specific problems and discuss those issues directly with the human resources
     officer in Bangkok.

     The OIG team believes that the embassy has not made a compelling case for the
     additional financial/human resources officer position. Furthermore, the newly arrived
     general services officer, who is the first incumbent in a new position, will absorb a
     substantial amount of the management officer’s workload. This arrangement will
     enable the management officer to focus more on internal controls, as well as financial
     and human resources management.

     The LE staff includes some experienced and capable employees in key management
     units. Some of the subordinate staff are inexperienced and untrained or lack requisite
     job skills, and their performance does not always meet the expectations of supervi­
     sors or customers. Embassy management has recently provided training for many
     LE staff, including formal training away from post, online courses, and on-the-job
     training.


20                    OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



RIGHTSIZING AND CONSOLIDATION OF
MANAGEMENT SERVICES
Embassy Dili submitted a rightsizing report to the Department in FY 2008, with
projected staffing levels for 2013 serving as a basis for final design of a new embassy.
The Department review noted that Embassy Dili should continue to receive major
administrative support from the regional service center at Embassy Bangkok, rather
than creating a full ICASS platform at Embassy Dili.

 The review further concluded that USAID and the Department had set up duplica­
tive management platforms, and it recommended consolidating most services prior
to relocating to a new embassy. Although the new embassy project now has been
postponed for at least another 12 years, Embassy Dili recently completed the recom­
mended merger of assets and personnel who provide general services support in
operations such as housing, maintenance, motor pool, and warehousing. The major
exception is with furniture and appliance inventories, which is discussed in another
section of this report.

Embassy and USAID managers are satisfied with the consolidated arrangements, but
consolidation may result in more, rather than fewer, management support personnel.
This is because in-house staff will replace contractors who had previously performed
janitorial, gardening, and maintenance support for USAID offices and residences.
USAID was dissatisfied with the poor quality and unreliability of the contractor’s
maintenance services.




HUMAN RESOURCES
As discussed above, the OIG team does not support the embassy’s request for an
additional officer to support HR and financial management operations.

Embassy Dili has an LE staff committee, but the group tends to be passive and
without major issues to advance. However, the small size of the staff and the close
working relationship between the LE staff and their U.S. supervisors contributes to a
favorable climate for communication between the two groups. Embassy management
also has taken several measures to foster good communications, including hold­
ing regular meetings and including LE staff in social and recreational events. The
Ambassador also has indicated that she intends to pay special attention to LE staff
morale and professional development.




                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   21


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED


     FINANCIAL MANAGEMENT
     Under the terms of a 2006 memorandum of understanding, Embassy Bangkok
     provides the full range of financial management services to Embassy Dili, including
     technical and advisory oversight, guidance and support, and timely processing of
     documents. The financial management officer at Embassy Bangkok serves as the
     certifying officer for Embassy Dili, and a senior LE staff accountant from that
     office visits Dili at least four times per year for extended periods. Embassy Dili’s
     management is satisfied with the quality and timeliness of the regional support,
     although some embassy staff expressed unhappiness about perceived delays in the
     processing of travel vouchers.

     Even with extensive regional support, there are some elements of financial
     management that Embassy Dili performs. The management officer serves as funds
     control officer and approving officer for cashier operations. He directly supervises an
     LE staff cashier, who has completed the cashier training course. (b)(2)(b)(5)(b)(6)


     In FY 2010, Embassy Dili received $601,500 in program funds and $2,345,800
     in ICASS funds. Other major Department allotments included $257,819 from the
     Bureau of Diplomatic Security and $328,347 from OBO.




     INTERNATIONAL COOPERATIVE ADMINISTRATIVE
     SUPPORT SERVICES
     Embassy Dili established an ICASS council in October 2009, with representatives
     from USAID and the Departments of State, Defense, and Justice. The DCM is
     engaged in ICASS and has attended every council meeting thus far. The ICASS
     service center provided onsite training for council members in January 2010, and the
     council has subsequently proven effective in considering such important issues as LE
     staff salary increases, Department/USAID consolidation of services, and requests for
     new positions.




     FACILITIES MANAGEMENT
     The facilities management unit is under the general direction of the management
     officer, but an LE third country national provides ongoing supervision of a staff that



22                    OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



includes four LE tradesmen, three janitors, and six gardeners. Embassy customers
are pleased with the quality of maintenance support. This satisfaction is all the more
remarkable, given the poor municipal infrastructure for providing power and water,
which puts significant demands on the maintenance staff.


Generator Issues
Frequent power interruptions require emergency generator support for residences
and offices, and the embassy maintains a large inventory of generators. However,
a major deficiency in emergency generator support is that the chancery compound
has only two generator sets. A visiting OBO contractor addressed this issue in a July
2010 report, noting that both generators were running above load. He recommended
installing two additional generators to support the total demand for emergency
power. At the time of this inspection, they had not yet been installed. One of the
generators has been malfunctioning. In the annex to this report, the OIG team
explains further the effects of this deficiency.


   RECOMMENDATION 5: The Bureau of Overseas Buildings Operations,
   in coordination with Embassy Dili, should procure and install the additional
   generator sets at Embassy Dili, as recommended in the report of the contractor
   who conducted the July 2010 preventative maintenance visit. (Action: OBO,
   in coordination with Embassy Dili)



Residential Maintenance
The facilities maintenance staff has to devote considerable attention to residential
maintenance. Some residential landlords are willing to make necessary upgrades and
fulfill their contractual obligations for major maintenance and repairs, but the staff
must often cover emergency repairs and preventive maintenance. With the consolida­
tion of ICASS and USAID housing pools in FY 2011, the demand for both routine
and extraordinary ICASS maintenance services in embassy residences has doubled.
Moreover, the USAID residences had used local contractors to maintain their resi­
dences, but the poor quality of their work has left the units in relatively poor condi­
tion. The embassy believes it does not have enough residential maintenance staff and
funding to accomplish work objectives and is preparing a proposal for the ICASS
council to address these needs.




                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   23


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



     Safety, Health, and Environmental Management Program

     According to 15 FAM 933.2 a., overseas embassies with more than 25 staff members
     must have a fully functional safety, health, and environmental management (SHEM)
     program. Basic elements of a SHEM program should include monitoring and report­
     ing problems, establishing embassy policies, and providing guidance to the embassy
     community. Although various management units perform certain SHEM activities
     as part of their routine operations, Embassy Dili does not have a fully functioning
     SHEM program.

     Embassy management recognizes the importance of the program but competing
     management priorities, limited staffing, and lack of training have limited its abil­
     ity to carry out all of the required SHEM program activities. The embassy recently
     designated a SHEM committee, but some members were unaware of their designa­
     tion at the time of the inspection. The committee must meet to develop a formal
     SHEM policy, assess health and safety conditions. and identify program objectives.
     Considering the health and safety hazards present in Dili, an active SHEM program
     is vital to the safety of embassy staff.


        RECOMMENDATION 6: Embassy Dili, in coordination with the Bureau
        of Overseas Buildings Operations, should establish a fully functional safety,
        health, and environmental management program. (Action: Embassy Dili, in
        coordination with OBO)




     GENERAL SERVICES OPERATIONS
     Until recently, Embassy Dili did not have a general services officer, and the manage­
     ment officer had found it increasingly difficult to oversee all administrative opera­
     tions. Although customer satisfaction with general services operations was relatively
     high, the necessary span of control over the various management units was lacking,
     and incidents of inefficiency and malfeasance had occurred. The Department
     approved the embassy’s request to establish the position, and a first-tour officer
     arrived in late FY 2010. She reports directly to the management officer, supervises 12
     LE staff members, and is responsible for overseeing all elements of general services
     operations.




24                    OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                   SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



Housing
The management officer oversees the housing program, and the general services
officer manages the ongoing responsibilities for leasing. With the recent consolidation
of USAID units into the housing pool, Embassy Dili has established a housing board
that includes two voting members and the management and security officers as ex
officio members. The board assigns housing for all incoming personnel, in consider­
ation of special needs or expressed preferences, contingent upon the timing of arrivals
and vacancies. The community liaison office (CLO) coordinator provides incoming
staff with information about post housing, but there is no housing handbook that
explains the regulations, procedures, and other aspects of the housing program. The
OIG team made an informal recommendation that the embassy develop a housing
handbook.

The small housing pool consists of one long-term leased residence, the chief of
mission residence, and 17 short-term leased residences, all located within walking
distance or a short commute from the chancery. The other housing units are rela­
tively comfortable, functional, and attractive, with annual lease costs ranging from
$5,000 for smaller modular units to $50,000 for larger single-family houses. Recent
customer surveys indicate a high degree of satisfaction with embassy housing.


Motor Pool
Even after the recent absorption of USAID vehicles and drivers, Embassy Dili has a
small ICASS motor pool, which is adequate to meet its needs. The general services
officer provides overall direction, with an LE supervisor/dispatcher managing routine
operations and supervising nine drivers. The motor pool fleet includes 16 vehicles,
collectively valued at over $553,000. The fleet consists primarily of left-hand drive
Toyota sedans and vans, as well as a few utility vehicles. The fleet is relatively new
and in good condition, with nine of the vehicles dating from model year 2007 or
newer. The operating conditions for the motor pool are relatively benign; most trips
are within Dili, where the traffic is relatively light, so there is less likelihood of delays
or accidents.

The embassy has issued a motor pool policy outlining the regulations for motor
pool use and operation. However, some fundamental elements of the local policy
and Department regulations are not being consistently enforced. There is no vehicle
signage reminding passengers to fasten seat belts, nor do the drivers enforce seat
belt use. Drivers do not always enter trip data in vehicle usage logs before request­
ing passenger signatures. Of greatest concern is the fact that regulations prohibiting
personal use of official vehicles are not consistently enforced.




                  OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   25


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




         RECOMMENDATION 7: Embassy Dili should create and implement
         management controls to keep mission employees in compliance with all U.S.
         Government and Department of State regulations regarding operation and use
         of official vehicles. (Action: Embassy Dili)



     Customs and Shipping
     The newly-arrived general services officer provides overall supervision for the customs
     and shipping unit, and an LE staff member handles routine arrangements for ship­
     ping and customs clearance. Despite reports of lengthy delays in receiving incoming
     personal shipments, survey responses indicate that customers are satisfied with the
     quality of the services.


     Contracting and Procurement
     The general services officer also has assumed overall responsibility for contracting
     and procurement, and has a contracting warrant for acquisitions up to $250,000.
     She is assisted by one full-time procurement assistant and another who also has
     some collateral duties for travel management. Embassy Dili has no major contracts
     for such support services as janitorial, gardening, and local guard services, which
     are performed by directly hired staff. There are a few contracts for services, such as
     Internet service, trash collection, and various maintenance operations, but none in
     excess of $100,000. Following several recent incidents of unauthorized obligations,
     the management officer issued a notice in early FY 2011, reiterating to staff that any
     procurement requests must be submitted to the new general services officer, and that
     only designated contracting officers can commit U.S. Government funds.


     Property Management and Warehousing
     Property management and warehousing are also under the direct supervision of the
     general services officer. She supervises two LE staff positions, a clerk and a warehouse
                                                                                   (b)(2)(b)(5)(b)(6)
     supervisor, but the latter position was vacant at the time of the inspection,
                                                                 As noted above, the main
     embassy warehouse and maintenance shops are located on the chancery compound.
     With the recent consolidation of warehousing operations, the embassy has taken
     possession of the former USAID warehouse, a commercially leased building located a
     few minutes from the chancery.

     Although USAID has transferred the warehouse and property management func­
     tion to the embassy, the agency retains control over its inventory of furniture and



26                     OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED


appliances. The USAID executive officer indicated an interest in consolidating
this inventory into a mission-wide furniture and appliance pool, but did not think
USAID had sufficient funding to invest in new assets as required to buy into the
pools. The ICASS Service Center in Washington is developing alternative methods
for funding furniture and appliance pools outside of ICASS, and the embassy should
determine if such alternative funding procedures could work for Dili.


    RECOMMENDATION 8: Embassy Dili should coordinate with the
    International Cooperative Administrative Support Services Service Center
    to determine if alternative funding methods could be implemented at the
    embassy, thus enabling the U.S. Agency for International Development to
    participate in mission-wide furniture and appliance pools. (Action: Embassy
    Dili)


The OIG team inspected the warehouses and found a number of deficiencies that
could result in damage or loss of property. The chancery warehouse currently is
staffed by one clerk, and the leased warehouse has only an external guard, so inven­
tory controls are tenuous at best. Neither warehouse has adequate climate controls,
and the combination of intense heat, humidity, dust, and salt air in Dili pose a real
threat of damage to furniture, appliances, and other inventory items. The contents of
the chancery warehouse were stored in a haphazard manner, without proper shelving
or easy access to all items.

The owner of the former USAID warehouse has indicated interest in constructing
a new build-to-lease warehouse that could be designed to embassy specifications.
Considering the condition of the two current warehouses, this is an opportunity
worth pursuing.


    RECOMMENDATION 9: Embassy Dili, in coordination with the Bureau of
    Overseas Buildings Operations, should negotiate terms and conditions under
    which a developer would construct a new, purpose-built warehouse that would
    be leased to the embassy. (Action: Embassy Dili, in coordination with OBO)



Travel Services
The general services officer is the authorizing and approving official for all embassy
travel, while the LE travel assistant carries out the actual tasks associated with
travel. She has about one year of experience in managing embassy travel, but has


                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   27


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     completed formal Department training courses in travel management. Her duties
     include preparing travel orders and vouchers on the E2 system, making airline
     and hotel reservations for embassy and temporary duty travelers, working with the
     American Express contract travel agency at Embassy Bangkok, preparing neces­
     sary reports and documentation, and ensuring that travel is made in accordance
     with U.S. Government regulations. Among these regulations is the control over the
     use of premium class air travel. Embassy Dili reports that one business-class ticket
     was issued during the past year, and travel files included the required DS-4087,
     “Authorization Request for Business-Class Air Travel.”

     Considering the remoteness of Timor-Leste, travel service is an important element
     of ICASS operations. Recent customer survey results would confirm that embassy
     customers are not satisfied with the quality of travel services provided by American
     Express. The average scores for travel services on both the 2010 ICASS customer
     satisfaction survey and the OIG work and quality of life questionnaire were well
     below average. The embassy is looking at local options for travel services.




     INFORMATION MANAGEMENT
     Overall, the information management (IM) program works well and operates as a
     cohesive unit. The IM officer has been stationed at the embassy since 2009 and has
     had to overcome a number of issues, including that the IM program recently experi­
     enced a complete transition in staffing. In addition, a number of system upgrades and
     site reviews have added to a disruptive workload for the IM shop. The IM operation
     also has been fortunate to have an assigned backup IM officer who is assigned as
     the Ambassador’s office management specialist. The individual is experienced in
     IM duties and has assisted the program during key times of need, including a recent
     communications security audit.

     The IM officer has made the most of temporary duty support, and she rated the
     support as excellent. Project planning for the various IM temporary duty employees
     has been routinely mapped out, ensuring full utilization during the transition.
     The employees on temporary duty have issued detailed trip reports outlining areas
     addressed and projects completed.

     Despite Embassy Dili’s relatively small infrastructure, the IM program entails all
     of the functional areas that require constant operational support. In addition to
     administration of the OpenNet and ClassNet networks, the program covers pouch
     management, mailroom operations, and radio/telephone network. ICASS and OIG
     questionnaires reflect favorable feedback from the mission customers. Management
     has begun mitigation in several areas of concern identified during the course of the
     inspection.

28                    OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Information Systems Staff 

The IM program has experienced a complete transition in all facets of operations.
Both information systems center LE staff administrators are relatively new. The
mailroom/telephone operator position also has experienced turnover; this is discussed
in the mailroom section of this report.

The departure of the previous, seasoned LE staff systems manager was a setback to
program continuity. The recently hired systems manager is relatively untrained and
still in a probationary status, pending completion of needed training and on-the-job
experience. The OIG team suggested that the systems staff could also benefit from
a cross-training program with Embassy Jakarta. The information systems center in
Jakarta is currently establishing a regionalization platform that incorporates sharing
best practices and operating procedures within the region.


Radio/Telephone Technician Support
Embassy Dili does not have a telephone/radio technician on its IM staff. While the
telephone/radio duties are currently covered by the two information systems center
administrators and the IM officer, the IM staff does not have adequate training or
expertise. A local service provider supports the telephone infrastructure. The regional
information management center in Bangkok also has provided trouble shooting
intermittently by phone. Regardless of the size of the embassy, the telephone and
radio infrastructure requires constant maintenance. The OIG team discussed possible
solutions and made an informal recommendation.


Information Management Office
The IM office contains an unclassified switch that is housed in a vacated server rack.
Cabling and wiring have been left exposed and unorganized on the walls and floor­
ing of the room. The server rack was left in the office to be used as a training plat­
form. The OIG team made an informal recommendation to remove the server rack
and replace it with a switch box, which would meet Department standards and free
up space that could be used more efficiently for storage in the information systems
center. Management agreed with the OIG team’s suggestion and plans to procure the
necessary equipment.


Mail and Pouch Operation
Embassy Dili’s mail and diplomatic pouch operation has been an issue. (b)(2)(b)(5)(b)(6)

                                              The embassy has selected a replacement, but in



                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   29


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



     the meantime the general services staff has had to provide backup support. Embassy
     managers are committed to turning the program around.

     Some American employees have also abused pouch privileges. During the inspection,
     the IM officer asked the OIG team for guidance about a large shipment of household
     effects that arrived through the unclassified pouch. The shipment, which weighed
     over 220 pounds, was sent from Embassy Bangkok through the unclassified pouch
     and constituted a violation of pouch privileges. The IM officer, who is the designated
     pouch control officer for the embassy, notified the employee who had committed
     the violation, and that individual agreed to reimburse the embassy for transportation
     costs.

     The embassy has no written policy stipulating regulations and the appropriate use
     of the diplomatic pouch and mail services. The lack of a policy leaves room for error
     and surprise when violations occur. Since this situation has been an ongoing problem,
     management needs to advise mission personnel of the rules and responsibilities for
     using the pouch.


        RECOMMENDATION 10: Embassy Dili should establish a pouch policy
        that explains authorized use of the diplomatic pouch, and should distribute the
        policy to all mission staff. (Action: Embassy Dili)



     Contingency Plan
     Embassy Dili does not have an updated contingency plan for its unclassified
     network. Per 12 FAM 622.3, the data center manager and system owner, in conjunc­
     tion with the information management officer, should develop a contingency plan
     for all systems. The plan should be coordinated with the embassy’s emergency action
     plan to ensure consistency between the two. Additionally, the plan should be updated
     annually or whenever major modifications occur to the systems. (b)(2)(b)(5)




        RECOMMENDATION 11: Embassy Dili should develop and test a contin­
        gency plan for the unclassified network in accordance with Department regu­
        lations. (Action: Embassy Dili)




30                   OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Dedicated Internet Network
Embassy Dili is currently operating a dedicated Internet network that is provid­
ing service to several offices on the compound. According to 5 FAM 872.2, the
dedicated Internet network must be formally registered with the Department and
approved. Dedicated Internet networks that are not registered must be immediately
terminated. Management has acknowledged the issue and has begun compliance.


Information System Security Officer
As is common in small embassies, information systems security officer duties are not
appropriately separated, as required by Department regulations. Embassy Dili’s IM
officer is designated as the information systems security officer for both the unclas­
sified and classified systems. The regional security officer is the alternate for both
systems but has not completed the required information systems security officer’s
course, per 12 FAM 622.2. The OIG team made an informal recommendation on
this subject.




                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   31


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





32   OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



QUALITY OF LIFE

The overall morale of embassy staff and their families is high, judging from the
scores of respondents to the survey conducted for this inspection. There are numer­
ous factors that influence morale, including but not limited to the following areas.




COMMUNITY LIAISON OFFICE
Embassy Dili has an energetic and effective CLO coordinator, who has offered a
wide range of programs and activities for the embassy community. She has had CLO
training and provides important information to the embassy staff through such
means as a pre-arrival letter, an orientation for newcomers, and a monthly newsletter
highlighting activities and host country culture. The CLO coordinator participates
in all appropriate embassy committees and serves as a liaison with the local school
attended by embassy dependents. The community is extremely pleased with her
performance.


Dependent Education
Embassy Dili’s American employees expressed satisfaction with the education for
their children at post, ( b) (6)




                                                                 The embassy works
closely with the school on logistical support and security, and the school has received
grant funding to upgrade physical security installations.




                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   33


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     HEALTH UNIT

     In a region where tropical diseases abound, and in a country with very limited medi­
     cal infrastructure, it is essential that Embassy Dili staff and family members have
     access to high quality medical care. The embassy health unit provides primary care,
     wellness programs, and assistance with arranging for medical evacuations for more
     serious medical issues.

     The health unit is staffed by a locally hired medical doctor, who works under the
     supervision of the management officer. With the departure of the Peace Corps in
     2006, Embassy Dili inherited a modular medical unit that now sits at the rear of
     the embassy compound. The medical unit features a waiting room, an office for
     the doctor, an examination room, and a lockable storage room where supplies and
     medicines are maintained under appropriate conditions. There is a defibrillator and
     oxygen at the medical unit, and the embassy has ordered additional defibrillator units
     to be installed elsewhere around the compound.

     The doctor has worked closely with the regional medical officer from Embassy
     Jakarta, as well as the regional medical officer psychiatrist from Embassy Bangkok.
     Both of these physicians visit Dili on a regular basis and provide advice and assistance
     via telephone or email. Embassy staff with medical conditions that require secondary
     treatment are evacuated to Singapore or Australia, depending on the availability of
     scheduled commercial air transportation.




     EQUAL EMPLOYMENT OPPORTUNITY PROGRAM
     Embassy Dili only recently has established a formal EEO program; embassy manage­
     ment needs to devote more attention to developing the program. An EEO policy was
     issued in late October 2010. A Federal Women’s Program coordinator was designated
     under a separate management notice in October 2010. The EEO program notice
     highlights basic EEO objectives and principles, and advises that further information
     can be obtained on a Department Web site, and also is posted on an EEO bulletin
     board in the chancery. These are good initial steps.

     The notice also acknowledges that the embassy does not have certified EEO counsel­
     ors. It refers staff members to the Department for names of certified EEO counselors
     at nearby embassies. The Department gives small embassies the option to either have
     their own certified counselors or use counselors from neighboring posts. Given the
     remoteness of Embassy Dili, it would be beneficial to have a certified counselor who
     could provide counseling, raise post awareness of EEO issues, and offer advice on the
     subject to embassy management.


34                    OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




   RECOMMENDATION 12: Embassy Dili, in coordination with the Office
   of Civil Rights, should designate a U.S. direct-hire employee to serve as an
   Equal Employment Opportunity counselor, and should arrange for training
   for the selected individual as soon as possible. (Action: Embassy Dili, in coor­
   dination with S/OCR)


In addition to an EEO counselor, embassies are encouraged to have at least one EEO
liaison from the LE staff. Embassy Dili does not currently have a locally employed
EEO liaison, but would benefit from having one, particularly in view of the limited
English language skills and cultural differences between American and Timorese
staff. The OIG team made an informal recommendation on this issue.




EMPLOYEE ASSOCIATION
Embassy Dili has an employee association, which is appropriate where recreational
opportunities are extremely limited. The association has a board of volunteers from
the mission, but no formalities such as by-laws, membership, or paid staff . The
primary activities include promoting social activities and operating a small cafeteria
that is open to all American and Timorese employees. The cafeteria was closed at the
time of this inspection, as the prior concessionaire had resigned and had not yet been
replaced. The association generates limited income through sales of logo items and
food and beverages at social events.




                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   35


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





36   OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




MANAGEMENT CONTROLS



MANAGEMENT SECTION
Embassy Dili submitted the 2010 chief of mission annual certification of manage­
ment controls on August 13, 2010, reporting that the system of overall management
controls was adequate. However, the OIG team believes there is room for improve­
ment in management controls at Embassy Dili. The embassy must further enhance
the controls as it evolves into a more normal embassy. A past incident of cashier
malfeasance and more recent incidents of unauthorized obligations, abuse of pouch
privileges, and noncompliance with Department regulations on use of government
vehicles are symptomatic of fundamental problems. At times, embassy staff demon­
strate a lack of understanding about or interest in management controls. Embassy
management must institutionalize internal control standards at all levels.

The executive office is demonstrating intense interest and active involvement in tight­
ening internal controls in all embassy operations. Actions are being taken to resolve
some deficiencies. As the embassy management controls coordinator, the manage­
ment officer is engaged in improving the span and effectiveness of management
controls. The cashier embezzlement incident of 2009 prompted the management
officer and regional financial assistant to increase oversight of cashier operations, and
the management officer has completed a cashier supervisor course.

Internal controls over general services operations will be greatly enhanced, now that
there is a general services officer. Also, management has instituted new procedures
for the physical control of high-value items, and it plans to request additional LE staff
to better manage property inventories. The embassy recently issued comprehensive
policies regarding procurement and motor vehicle use. These steps are significant
advances, but embassy management must continue to improve internal controls by
making sure that all staff members understand and comply with these policies.




                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   37


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     CONSULAR MANAGEMENT CONTROLS
     The primary consular management control in this small operation is accounting for
     consular cash collections. The OIG team reviewed the procedures with the ELO in
     charge of consular work and the Class B cashier, and determined that they are in
     compliance with the regulations.




     GRANTS MANAGEMENT
     The OIG team found grants properly managed. The LE staff have grants officer
     representative training. As road conditions allow, embassy staff endeavor to travel to
     monitor projects in remote locations.




38                    OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




RECOMMENDATIONS


RECOMMENDATION 1: The Bureau of Overseas Buildings Operations, in coor­
dination with Embassy Dili, the Bureau of Diplomatic Security, and the Bureau of
East Asian and Pacific Affairs, should stop considering the embassy chancery as an
“interim office building,” and should develop a master facilities plan for renovations
and expansions to ensure the security and functionality of the current chancery, until
a new chancery is constructed. (Action: OBO, in coordination with Embassy Dili,
DS, and EAP)


RECOMMENDATION 2: Embassy Dili, in coordination with the Bureau of
East Asian and Pacific Affairs and the Bureau of Intelligence and Research, should
conduct a survey of political opinion in advance of the 2012 national elections.
(Action: Embassy Dili, in coordination with EAP and INR)


RECOMMENDATION 3: Embassy Dili, in coordination with the Bureau of
Consular Affairs, should explore alternative arrangements for processing U.S. pass­
port applications from Timor-Leste. The embassy should initiate this dialogue by
sending a cable to the Department explaining the problems with the current arrange­
ment. (Action: Embassy Dili, in coordination with CA)


RECOMMENDATION 4: Embassy Dili should send a formal request to the
Bureau of Consular Affairs, explaining why it should provide nonimmigrant visa
services in Dili and what the resource implications would be for doing so. (Action:
Embassy Dili)


RECOMMENDATION 5: The Bureau of Overseas Buildings Operations, in
coordination with Embassy Dili, should procure and install the additional generator
sets at Embassy Dili, as recommended in the report of the contractor who conducted
the July 2010 preventative maintenance visit. (Action: OBO, in coordination with
Embassy Dili)


RECOMMENDATION 6: Embassy Dili, in coordination with the Bureau of
Overseas Buildings Operations, should establish a fully functional safety, health, and
environmental management program. (Action: Embassy Dili, in coordination with
OBO)



                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   39


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



     RECOMMENDATION 7: Embassy Dili should create and implement manage­
     ment controls to keep mission employees in compliance with all U.S. Government
     and Department of State regulations regarding operation and use of official vehicles.
     (Action: Embassy Dili)


     RECOMMENDATION 8: Embassy Dili should coordinate with the International
     Cooperative Administrative Support Services Service Center to determine if alterna­
     tive funding methods could be implemented at the embassy, thus enabling the U.S.
     Agency for International Development to participate in mission-wide furniture and
     appliance pools. (Action: Embassy Dili)


     RECOMMENDATION 9: Embassy Dili, in coordination with the Bureau of
     Overseas Buildings Operations, should negotiate terms and conditions under which
     a developer would construct a new, purpose-built warehouse that would be leased to
     the embassy. (Action: Embassy Dili, in coordination with OBO)


     RECOMMENDATION 10: Embassy Dili should establish a pouch policy that
     explains authorized use of the diplomatic pouch, and should distribute the policy to
     all mission staff. (Action: Embassy Dili)


     RECOMMENDATION 11: Embassy Dili should develop and test a contingency
     plan for the unclassified network in accordance with Department regulations.
     (Action: Embassy Dili)


     RECOMMENDATION 12: Embassy Dili, in coordination with the Office of
     Civil Rights, should designate a U.S. direct-hire employee to serve as an Equal
     Employment Opportunity counselor, and should arrange for training for the selected
     individual as soon as possible. (Action: Embassy Dili, in coordination with S/OCR)




40                   OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



INFORMAL
RECOMMENDATIONS

Informal recommendations cover operational matters not requiring action by orga­
nizations outside the inspected unit and/or the parent regional bureau and are not
subject to the OIG compliance process. However, any subsequent OIG inspection
or on-site compliance review will assess the mission’s progress in implementing the
informal recommendations.


Political-Economic Affairs
The embassy does biographic reporting infrequently.

Informal Recommendation 1: Embassy Dili should include biographic reporting
responsibilities in the work requirements statements of all reporting officers who have
significant amounts of contact work.

Employees have not been keeping files according to the Department’s Traffic
Analysis by Geography and Subject (TAGS) system. Documents are not readily
retrievable by colleagues, or by replacement staff with 2-year tours.

Informal Recommendation 2: Embassy Dili should establish shared electronic filing
systems according to the Department’s Traffic Analysis by Geography and Subject
system.

Embassy Dili has not retired files to the Department archives in years, creating a loss
of material for the Department and historians.

Informal Recommendation 3: Embassy Dili should issue an administrative notice
with instructions on records management and archiving responsibilities and develop
and implement a plan to enforce compliance with these requirements.

In July 2010, Embassy Dili installed the State Messaging and Archive Retrieval
Toolset (SMART) software. Employees are not making use of the SMART “record
email” function for policy and programmatic messages.

Informal Recommendation 4: Embassy Dili should issue an administrative notice
with guidance on the types of email correspondence that should be maintained for
files and archiving purposes by using the State Messaging and Archive Retrieval
Toolset “record email” function.


                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   41


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Embassy Dili convenes an assistance working group irregularly without a prepared
     agenda. Projects have not been fully vetted to avoid poor or unsustainable outcomes,
     partly because of the working group has not prepared well for coordination.

     Informal Recommendation 5: Embassy Dili should establish a regular schedule
     with prepared agendas for its assistance working group to effectively evaluate comple­
     mentary opportunities and validate good local partners for sustainable activities.


     Public Diplomacy
     The ELO responsible for political/economic affairs and consular operations also
     assists in public diplomacy work. The curtailment of the public affairs officer,
     however, led to a substantial increase in his responsibilities in public diplomacy. The
     current work requirements do not reflect his current duties.

     Informal Recommendation 6: Embassy Dili should amend the work requirements
     statement for the entry-level officer doing political/economic/consular work to reflect
     his increased responsibilities for public diplomacy during the vacancy in the public
     affairs position.


     Consular Affairs
     The consular warden system has not yet been created, although the embassy is work­
     ing on it. Lack of a warden system would be a problem if the embassy needed to
     notify American citizens in an emergency situation.

     Informal Recommendation 7: Embassy Dili should complete establishing a warden
     system for American citizens in Timor-Leste.

     The LE staff member primarily responsible for consular work, in addition to other
     duties, left the embassy for another job. Another LE staff member is currently
     performing most of the consular duties, with another as backup, but the work
     requirements for those employees do not reflect these duties.

     Informal Recommendation 8: Embassy Dili should revise the work requirements
     for the two locally employed staff members who currently assist in performing
     consular work to reflect their new duties.




42                    OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Management Section
Embassy Dili does not have a housing handbook to provide guidance to employees as
well as the new housing board.

Informal Recommendation 9: Embassy Dili should create and distribute a housing
handbook.


Information Management
The IM office contains an unclassified switch that is housed in a vacated server rack.

Informal Recommendation 10: Embassy Dili should appropriately relocate the
network switch in the information management office into a secured switch box.

Embassy Dili does not have a telephone/radio technician on the IM staff. The two
information systems center administrators and information management officer
service the telephones and radios but they do not have the appropriate training to
perform these duties.

Informal Recommendation 11: Embassy Dili should create a locally employed tele­
phone/radio technical position.

The regional security officer is the alternate information systems security officer but
does not have the requisite training.

Informal Recommendation 12: Embassy Dili should require the regional security
officer designated as the alternate information systems security officer to complete
the required training course.


Equal Employment Opportunity
In addition to an EEO counselor, embassies are encouraged to have at least one EEO
liaison from the LE staff. Embassy Dili does not currently have an LE staff EEO liai­
son but would benefit from having such a person, particularly in view of the limited
English language skills and cultural differences between American and Timorese
staff.

Informal Recommendation 13: Embassy Dili should designate a locally employed
staff member as an Equal Employment Opportunity liaison.




                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   43


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





44   OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




PRINCIPAL OFFICIALS


Position                                                        Name                                  Arrival Date

Ambassador                                                      Judith R. Fergin                          09/2010
Deputy Chief of Mission                                         Jonathan Henick                           06/2009

Chiefs of Sections
Management                                                      John LaRochelle                           09/2009
Political/Economic/Consular                                     Christopher Crawford                      02/2010
Public Affairs                                                  Vacant
Regional Security                                               Jan Hiemstra                              07/2009

Other Agencies
U.S. Agency for International Development                       Cheryl Williams                           08/2009
Department of Defense
    Office of Defense Cooperation                               Steven Johnson                            05/2009
Department of Justice
    Resident Legal Advisor                                      Alison Igoe                               06/2009




                 OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011                  45


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





46   OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


     SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED




ABBREVIATIONS


CLO                    community liaison office
DCM                    deputy chief of mission
EEO                    Equal Employment Opportunity
ELO                    entry-level officer
FAH                    Foreign Affairs Handbook
FAM                    Foreign Affairs Manual
ICASS                  International Cooperative Administrative Support
                       Services
IM                     information management
LE                     locally employed
MSRP                   Mission Strategic and Resource Plan
NIV                    nonimmigrant visa
OBO                    Bureau of Overseas Buildings Operations
OIG                    Office of Inspector General
Seabees                U.S. Navy Construction Battalion
SHEM                   safety, health, and environmental management
SMART                  State Messaging and Archive Retrieval Toolset
USAID                  U.S. Agency for International Development




          OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011   47


          SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





48   OIG Report No. ISP-I-11-21A - Inspection of Embassy Dili, Timor-Leste - March 2011


     SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED





SENSITIVE BUT UNCLASSIFIED

SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE

OR MISMANAGEMENT

 of Federal programs hurts everyone.



           Contact the

   Office of Inspector General


         HOTLINE

to report illegal or wasteful activities:


            202-647-3320 

            800-409-9926


         oighotline@state.gov


              oig.state.gov


      Office of Inspector General

       U.S. Department of State

            P. O. Box 9778

         Arlington, VA 22219



     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.




SENSITIVE BUT UNCLASSIFIED

